Audit Report




OIG-11-013
SAFETY AND SOUNDNESS: Failed Bank Review of Southern
Colorado National Bank
November 4, 2010




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            November 4, 2010


            OIG-11-013

            MEMORANDUM FOR JOHN G. WALSH
                           ACTING COMPTROLLER OF THE CURRENCY

            FROM:                 Michael J. Maloney /s/
                                  Director, Fiscal Service Audits

            SUBJECT:              Failed Bank Review of Southern Colorado National Bank


            This memorandum presents the results of our review of the failure of Southern
            Colorado National Bank (Southern Colorado). Southern Colorado opened in March
            2002 and had one branch in Pueblo, Colorado. The bank was a subsidiary of
            Southern Colorado National Bancorp, Inc., a bank holding company located in
            Pueblo, Colorado. The Office of the Comptroller of the Currency (OCC) closed
            Southern Colorado and appointed the Federal Deposit Insurance Corporation (FDIC)
            as receiver on October 2, 2009. As of September 4, 2009, the bank had
            $39.5 million in total assets. FDIC estimated that the loss to the Deposit Insurance
            Fund is $6.6 million.

            Because the loss to the Deposit Insurance Fund is less than $200 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
            review of the failure of Southern Colorado that was limited to (1) ascertaining the
            grounds identified by OCC for appointing the FDIC as receiver and (2) determining
            whether any unusual circumstances exist that might warrant a more in-depth
            review of the loss. In performing our review we (1) examined documentation
            related to the appointment of FDIC as receiver, (2) reviewed OCC reports of
            examination, and (3) interviewed OCC examination personnel.

            We conducted this performance audit during September 2010 in accordance with
            generally accepted government auditing standards. Those standards require that
            we plan and perform the audit to obtain sufficient, appropriate evidence to provide
            a reasonable basis for our findings and conclusions based on our audit objectives.
            We believe that the evidence obtained provides a reasonable basis for our findings
            and conclusions based on our audit objectives.
OIG-11-013
Page 2

Causes of Southern Colorado’s Failure
The primary causes of Southern Colorado’s failure were its (1) aggressive growth
strategy, (2) significant loan concentrations in commercial real estate loans, and
(3) ineffective board and management. Southern Colorado’s aggressive growth
strategy was funded by unstable brokered deposits and borrowings from Federal Home
Loan Bank. Due to a weakening economy and slow real estate sales, the bank’s asset
quality began to deteriorate severely. In turn, poor asset quality caused losses,
depleted capital, and strained liquidity, ultimately resulting in the bank’s failure.

Conclusion
Based on our review of the causes of Southern Colorado’s failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the bank’s failure or the supervision
exercised by OCC. Accordingly, we have determined that a more in-depth review of
the bank’s failure by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated that it agrees with our conclusion about the primary causes
of Southern Colorado’s failure. OCC also stated that it had no concern with our
determination that an in-depth review of the failure is not warranted. The response
is provided as Attachment 1. A list of the recipients of this memorandum is
provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-6512 or
Shaneasha Edwards, Acting Audit Manager, at (202) 927-5814.

Attachments
         OIG-11-013

       Attachment 1
Management Response
                                                   OIG-11-013

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
